Audit Report 97-28 - Table of Contents
MANAGEMENT OF
THE FEDERAL BUREAU OF INVESTIGATION'S
SAFE STREETS FUGITIVE TASK FORCES
Audit Report  97-28, (9/97)
TABLE OF CONTENTS
EXECUTIVE SUMMARY
INTRODUCTION
FINDINGS AND RECOMMENDATIONS
I. IMPROVEMENTS NEEDED TO INCREASE THE EFFICIENCY AND
EFFECTIVENESS OF TASK FORCE OPERATIONS
Operational Weaknesses
Potential Duplication
Mapping Suggests Task Forces Not in Areas of Greatest Need
Conclusion
Recommendations
II. BETTER ADMINISTRATIVE CONTROLS COULD INCREASE ADHERENCE WITH
FUGITIVE TASK FORCE GUIDELINES
Task Force Monitoring Needs Improvement
Conclusion
Recommendations
III. DEPUTATION OF STATE AND LOCAL TASK FORCE MEMBERS COULD BE
STREAMLINED
Deputation Delays
Cumbersome Deputation Process
Conclusion
Recommendation
OTHER REPORTABLE MATTERS
STATEMENT ON MANAGEMENT CONTROL STRUCTURE
STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS
APPENDIX I - Objectives, Scope, and Methodology
APPENDIX II - Regional Maps of Warrant Universe
Northeastern U.S.
Southeastern U.S.
Great Lakes States
Midwestern U.S.
Western U.S.
APPENDIX III - Fugitive Case File Review
APPENDIX IV - FBI Safe Streets Task Forces Reviewed
APPENDIX V - Schedule of Dollar-Related Findings
APPENDIX VI - FBI Response to the Draft Report
APPENDIX VII - OIG Analysis and Summary of Actions
EXECUTIVE SUMMARY
In January 1992, the Federal Bureau of Investigation (FBI or the Bureau) established
its Safe Streets Violent Crime initiative to combat the nation's escalating violent crime
rate. The initiative allowed FBI offices to establish long term, proactive task forces
that focus on violent crimes and the apprehension of violent fugitives. While the task
forces are sponsored by the FBI, membership includes state and local law enforcement
officers, as well as other federal law enforcement personnel. Total operating costs,
during Fiscal Year (FY) 1995 (the latest data available), were $112.5 million or 5.3
percent of the Bureau's total budget for that year.
The initiative began with the redesignation of 19 existing efforts as Safe Streets task
forces. As of April 1996, the number escalated to 141 task forces, of which 64
concentrated on locating and apprehending violent state and local fugitives.
In brief, our audit revealed that the FBI could put about $3.7 million to better use as
7 of 20 fugitive task forces reviewed exhibited operational weaknesses and should be
reorganized or redirected. Specifically, the task force(s) in:
 Charlotte and Mobile had low numbers of arrests,
 El Paso and Kansas City were not under direct FBI supervision,
 Sacramento and San Juan had limited participation from state and local members,
and
 Tampa handled cases in which a possibility of flight had not been clearly
established.
In our judgment, the problems existed because the FBI did not periodically assess and
address the:
 numbers of warrants for violent crimes in relation to task force locations, or
 degree of participation and cooperation by member agencies.
The FBI could enhance task force operations and maximize efficiency by periodically:
 assessing the nationwide universe of active violent crime warrants and targeting
task force operations in the areas of greatest need,
 measuring each task force's impact by comparing its arrest activity to the
universe of violent crime warrants and reconfiguring task force locations based on need,
and
 evaluating task forces' efforts and identifying resources that could be
reallocated or task forces needing reorganization.
Administrative controls over task forces' operations were generally adequate; however,
we noted several areas where controls could be strengthened. The FBI could alleviate these
weaknesses through comprehensive and timely internal reviews of the individual task
forces.
Delays were noted in the deputation process of state and local officers, potentially
affecting the operation of the task forces. This situation occurred because the U.S.
Marshals Service granted the deputations instead of the FBI. In our judgment, the FBI
could avoid these delays and realize an annual savings of at least $50,400, if it handled
the deputations internally.
The details of our results are contained in the Findings and Recommendations section of
the report. Our audit objectives, scope, and methodology are contained in Appendix I.
#####